                          U.S. Department of the Interior
                              Office of Inspector General




   A bank of video lottery terminals at the Wyndham Sugar Bay Resort on St. Thomas. (OIG photo)




                                 Controls Over Video
                        Lottery Terminal Operations,
                     Government of the Virgin Islands


Report No. V-IN-VIS-0004-2005                                                       June 2007
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
            United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                   Western Region Office
                              2800 Cottage Way – Suite E-2712
                                  Sacramento, CA 95825



                                                                               June 8, 2007


Honorable John P. de Jongh, Jr.
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, VI 00802

Re: Final Audit Report, Controls Over Video Lottery Terminal Operations, Government
    of the Virgin Islands (Report No. V-IN-VIS-0004-2005)

Dear Governor de Jongh:

        The enclosed report presents the results of our audit of controls over video lottery
terminals (VLT) by the Virgin Islands Lottery (Lottery). Our objective was to determine
whether the Lottery had an adequate level of control over VLT operations on the islands
of St. Thomas and St. John.

        We were troubled to find that the Lottery has virtually no control over VLT
operations, a condition that raises serious concerns about whether your Government is
receiving all the VLT-related revenues and taxes to which it is entitled. Our audit, which
covered calendar years 2003 through 2005, revealed that the Lottery received
$8.3 million in revenues during this period. We believe, however, that unrealized
revenues may be in the millions. We were unable to determine the exact amount of these
revenues because the Lottery failed to obtain and maintain the financial documents
necessary to make such a determination. Identified monetary impacts are shown in
Appendix 1.

        We noted that increasing revenues to the Government was a primary motivation
for allowing video gaming on St. Thomas and St. John. VLTs were expected to generate
additional revenues to the Government of about $15 million annually, thereby enabling
the Government to implement or supplement programs to improve the economy and
quality of life for the people of the Virgin Islands. The Lottery, however, could not
verify the actual revenues generated from VLTs and has not acted to collect the
Government’s share of these revenues. Instead, Southland Gaming of the Virgin Islands
(SGVI) controls every aspect of video gaming on the islands as a result of (1) a flawed
contract and master license agreement that did not protect the Government’s interests and
(2) the failure of the Lottery to oversee VLT operations and retailer accounts.
         The lack of Lottery oversight is evidenced by the absence of standard gaming
protocols at nearly every level of VLT operations, from equipment installation and
testing to revenue collection. For example, the Lottery does not participate in or monitor
either the downloads by SGVI of data from VLTs on the amount of cash gambled and
won by customers or the distribution of net VLT revenues among the Lottery, SGVI, and
retailers. Without a verification protocol, the Lottery must accept at face value the
revenue data presented by SGVI. In contrast, a gaming protocol instituted by New Jersey
mandates that representatives of both the casino and the casino control commission be
present to verify that gaming receipts are accurately and completely accounted for and
not improperly removed from machines. All gaming machines have a double-locked
compartment, with one key controlled by the casino and a second key controlled by the
casino control commission.

        Standard gaming protocols provide a system of checks and balances to protect
gaming from fraud and abuse of gaming revenues. The lack of such a system for VLT
operations not only compromises the integrity of these operations, but also jeopardizes
public confidence and trust in video gaming. We made 11 recommendations, which, if
implemented, should significantly improve the Lottery’s effectiveness in administering
and monitoring VLT operations to ensure that the Government receives all revenues and
taxes to which it is entitled.

        In your February 2, 2007 response to our draft report (Appendix 4), you
concurred with Recommendation Nos. 1, 2, 3, 6, 9, and 10 and indicated that actions had
been taken to address Recommendation Nos. 4, 5, 7, 8, and 11. Based on your response,
we consider Recommendation Nos. 1 and 4 to be resolved and implemented;
Recommendation Nos. 2, 3, 6, 9, and 10 to be resolved, but not implemented; and
Recommendation Nos. 5, 7, 8, and 11 to be unresolved. The status of the audit
recommendations is shown in Appendix 5.

        The legislation, as amended, creating the Office of Inspector General (OIG)
requires that we report to Congress semiannually on all audit reports issued, the monetary
effect of audit findings, actions taken to implement our audit recommendations, and
recommendations that have not been implemented. This report will therefore be included
in our next semiannual report to Congress.

       Please provide a response to this report by July 13, 2007, and send the response
to:

                              Ms. Anne L. Richards
                              Assistant Inspector General for Audits
                              U.S. Department of the Interior
                              1849 C Street, NW, MS 5341
                              Washington, D.C. 20240

Also send a copy of the response to our Mr. Hannibal Ware, Field Office Supervisor,
Office of Inspector General, Caribbean Field Office, Ron deLugo Federal Building,



                                            2
Room 207, Charlotte Amalie, Virgin Islands 00802. The response should provide the
information requested in Appendix 5.

       We appreciate the cooperation shown by Government staff during our audit. If
you have any questions concerning this report, you may contact me at (916) 978-5653 or
Mr. Ware at (340) 774-8300.

                                    Sincerely,



                                   Michael P. Colombo
                                   Regional Audit Manager

Enclosure

cc: Executive Director, Virgin Islands Lottery
    Chairperson, Virgin Islands Lottery Commission




                                          3
CONTENTS

                                          Background ......................................................................1
INTRODUCTION                              Objective .........................................................................3

                                         Lottery Has No Effective Oversight of
RESULTS OF AUDIT                          VLT Operations ..............................................................4
                                             Unrealized Tax Revenues ..........................................4
                                             Lack of Operational Control ......................................5
                                             Flawed Contract and Master Lease Agreement ..........7
                                             Monitoring Deficiencies .............................................7
                                             Lottery Payments to Special Government Funds........8
                                             Records Management Deficiencies.............................8

                                         To the Governor of the Virgin Islands ............................10
RECOMMENDATIONS
                                         Governor’s Response and OIG Reply.............................10

.                                        1.   Monetary Impact ........................................................12
APPENDICES                               2.   Audit Scope and Methodology...................................13
                                         3.   List of Video Lottery Retailers ..................................15
                                         4.   Governor’s Response .................................................17
                                         5.   Status of Audit Recommendations.............................31




Acronyms

GLI................................................................................ Gaming Laboratories International
OIG ...........................................................................................Office of Inspector General
SGVI .....................................................................Southland Gaming of the Virgin Islands
VIC........................................................................................................Virgin Islands Code
VLT.................................................................................................Video Lottery Terminal




                                                               i
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
INTRODUCTION
                                   The Virgin Islands Lottery (Lottery) was created by statute
BACKGROUND                         in 1937 and established as an independent instrumentality
                                   of the Government of the Virgin Islands in 1971. Lottery
                                   operations are managed by an Executive Director, who is
                                   subject to supervision by a seven-member Lottery
                                   Commission. The Virgin Islands Code (VIC) specifies the
                                   powers and duties of the Executive Director and the Lottery
                                   Commission.
                                   In 1998, a contract was awarded to Southland Gaming of the
                                   Virgin Islands (SGVI) 1 to operate video lottery terminals
                                   (VLT) in the Virgin Islands if and when video lottery
                                   gaming became legal. VLT operations were originally
                                   established on the Virgin Islands as a means to provide
                                   additional revenues to the Government. The Governor,
                                   however, on three occasions, vetoed legislation to revise the
                                   VIC to authorize VLTs. The Legislature voted to override
                                   the Governor’s latest veto in December 2002, and on that
                                   basis, SGVI installed and operated VLTs at three locations
                                   on St. Thomas from January through April 2003.
                                   Attempts by the Legislature to repeal the law authorizing
                                   VLTs prompted a lawsuit by SGVI and a countersuit by the
                                   Government. After the repeal legislation failed, the
                                   Government and SGVI dropped their respective lawsuits. In
                                   July 2003, the Lottery and SGVI negotiated a new contract
                                   allowing SGVI to install VLTs at retail locations on
                                   St. Thomas and St. John. Full-scale VLT operations began
                                   in August 2003. In December 2003, the Lottery and SGVI
                                   entered into a Master License Agreement, which expanded
                                   the July 2003 contract. As of February 2006, 489 VLTs
                                   were located at 42 retailers on St. Thomas and St. John.
                                   Based on information provided by SGVI, we estimated that
                                   during calendar years 2003, 2004, and 2005, VLTs received
                                   about $87 million in cash and paid out about $61 million, or
                                   70 percent, in prizes. The $26.1 million in net gaming
                                   proceeds was distributed as follows:
                                          - $5.7 million (22 percent) among the retailers where
                                            VLTs were located,
                                          - $8.3 million (32 percent) to the Lottery, and
                                          - $12.1 million (46 percent) to SGVI (see Figure 1).

1
    A company incorporated and based in North Carolina.
                                                    1
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                  Figure 1. Summary of VLT Receipts
                                                                              Percent
                             Calendar    Calendar        Calendar               of
                              Year        Year            Year                 Cash       Percent of
               Description     2003        2004            2005     Totals      In       Net Proceeds
                                                   (Dollars in Millions)

               Estimated       $1.6        $22.8          $62.4      $86.8      100            ---
               Cash Ina
               Estimated       $1.0        $16.0          $43.7      $60.7      70             ---
               Prize
               Payoutsa
               Actual Net      $0.6         $6.8          $18.7      $26.1      30            100
               Proceedsb
               Estimated       $0.1         $1.5           $4.1      $5.7       ---            22
               Retailer
               Share c
               Actual          $0.1         $1.9           $6.3      $8.3       ---            32
               Lottery
               Shareb

               Estimated       $0.4         $3.4           $8.3      $12.1      ---            46
               SGVI
               Shared
           a
             Estimated cash in and estimated prize payouts are based on information obtained from SGVI,
              which suggests that, over the long term, VLTs pay out about 70 percent of the cash played by
              customers.
           b
             Actual net proceeds and actual Lottery share are based on weekly statements submitted to the
              Lottery by SGVI.
           c
             Estimated retailer share is based on the 22-percent share required to be paid to retailers.
           d
             Estimated SGVI share is the remaining balance of actual net proceeds, after deducting the
              estimated retailers’ share and the actual Lottery share.




                                                     2
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                  The distribution of net gaming proceeds among SGVI,
                                  retailers and the Lottery is determined based on VLT
                                  contract stipulations and retailer rules and regulations.
                                  Share percentages are as follows:

                                           Amount of                SGVI        Retailer      Lottery
                                      Net Gaming Proceeds           Share        Share         Share
                                     Less than $300,000 per        48.75%         22%        29.25%
                                     week
                                     $300,000 to $600,000          44.75%         22%        33.25%
                                     per week
                                     More than $600,000 per        41.5%          22%         36.5%
                                     week


                                  We conducted our audit to determine whether the Lottery
OBJECTIVE                         adequately controlled VLT operations on St. Thomas and
                                  St. John. Our scope and methodology are detailed in
                                  Appendix 2.




                                                    3
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
RESULTS OF AUDIT
                                  The Lottery has exercised virtually no oversight of VLT
LOTTERY HAS NO                    operations on St. Thomas and St. John. We found serious
EFFECTIVE                         deficiencies, such as substantial unrealized tax revenues, an
OVERSIGHT OF VLT                  overall lack of operational control, a flawed contract and
OPERATIONS                        master lease agreement, an absence of monitoring, neglect
                                  of payment to special Government funds, and
                                  insufficiencies in records management. The Lottery allows
                                  SGVI to control every aspect of video gaming from
                                  equipment installation to revenue collection and remittance
                                  and has no records to show whether VLT-related revenues
                                  or appropriate taxes have been paid to the Government. The
                                  lack of any working system of checks and balances over
                                  VLT operations significantly increases the risk of fraud,
                                  waste, and abuse of VLT revenues and undermines public
                                  confidence and trust in VLT operations. We were unable to
                                  determine the exact amount of unrealized revenues because
                                  the Lottery failed to obtain and maintain the financial
                                  documents necessary to make such a determination,
                                  although we believe unrealized revenues may be in the
                                  millions.

                                  The primary goal of introducing VLTs in the Virgin Islands
Potential Unrealized              was to generate additional Government revenues. However,
Tax Revenues                      the Lottery failed to ensure that these Government tax
                                  revenues were maximized. Specifically, it did not monitor
                                  SGVI performance to ensure that appropriate taxes were
                                  withheld, gross receipts taxes were handled properly, and
                                  corporate income taxes were paid to the Government of the
                                  Virgin Islands.

        Tax                       An SGVI official told us that SGVI withholds 25 percent
        Withholding               from VLT prizes of more than $5,000 for remittance to the
                                  Bureau of Internal Revenue. As the oversight agency,
                                  however, the Lottery has no mechanism in place to
                                  determine whether SGVI actually withheld or remitted the
                                  correct amounts. Additionally, a Bureau of Internal
                                  Revenue official told us that the Bureau could not determine
                                  if SGVI deposited amounts withheld for individuals.
                                  Without a mechanism to ensure that withholding was
                                  remitted by SGVI, the Lottery had no assurance that SGVI
                                  either deducted or remitted the 25 percent withheld from
                                  winnings over $5,000.


                                                    4
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
           Gross                     Without legislative authority, the Lottery expanded the
           Receipts                  definition in the VIC of “commissions” paid for the sale of
           Taxes                     lottery tickets to include VLT gaming proceeds. These
                                     commissions were exempt from gross receipts taxes to help
                                     lottery ticket dealers, who were usually individual local
                                     residents. By expanding the definition to include gaming
                                     proceeds, the Lottery, in effect, made all VLT revenues
                                     exempt from gross receipts taxes. As a result, the
                                     Government did not realize $3.5 million in gross receipts
                                     tax revenues that would have been paid had the 4-percent
                                     tax rate been applied to the $87 million in gross revenues.
                                     Retailers would also have owed 4 percent on their profits of
                                     nearly $6 million, resulting in additional tax revenues of
                                     $240,000.

           Corporate                 The VIC requires individuals and corporations conducting
           Income Tax                business in the Virgin Islands to file income tax returns;
                                     however, according to the Bureau of Internal Revenue, it
                                     had no record of SGVI having filed corporate income tax
                                     returns in the Virgin Islands for fiscal years 2003 through
                                     2005. 2 Because SGVI is not required to submit audited
                                     annual financial statements to the Lottery, neither we nor
                                     the Lottery could determine the amount of corporate income
                                     tax that should have been paid.

                                     We identified several shortcomings in regard to operational
Lack of Operational                  control, including unmonitored cash collections, inadequate
Control                              testing of VLT machines, and an overall lack of security.

             Cash                    The Lottery neither participated in nor monitored the
             Collections             removal of cash receipts and betting and payout data from
                                     VLT machines. It also did not reconcile weekly VLT
                                     revenue statements provided by SGVI with payment checks
                                     for the Lottery’s share of net gaming proceeds. The Lottery
                                     was therefore unaware of errors in remittance computations
                                     involving its share of gaming revenues which we brought to
                                     the attention of Lottery officials. At the majority of retail
                                     locations, retailers removed cash receipts from VLTs at the
                                     end of each business day and deposited the funds into their
                                     individual business accounts.

                                     SGVI downloaded data from internal counters in the VLTs
                                     that recorded the amount of cash put into the machine by
                                     customers and the amount paid out on a weekly basis.
                                     SGVI used this data to determine the amount retailers were
2
    In a letter dated April 4, 2007, SGVI provided OIG with copies of its income tax returns.
                                                        5
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                  entitled to keep and the amount retailers must pay SGVI.
                                  SGVI also used the data to prepare manual revenue
                                  statements and make weekly payments to the Lottery. This
                                  practice is contrary to established gaming controls.
                                  For example, in New Jersey, all gaming machines have
                                  double-locked compartment, with one key controlled by the
                                  casino and the second key controlled by the casino-control
                                  commission. The double-locked internal control technique
                                  ensures that gaming receipts are accurately and completely
                                  accounted for and that receipts are not improperly removed
                                  from machines. Because the Lottery did not monitor cash
                                  collections, it was totally dependent on SGVI data and could
                                  not verify the accuracy of that data.

          VLT                     Despite contract stipulations, the Lottery failed to test VLTs
          Testing                 before or immediately after operation began. Without
                                  documented evidence that specific machines were tested and
                                  the results of those tests, the Lottery could not ensure that
                                  VLT’s were operating properly. Testing is a standard
                                  protocol within the gaming industry.

                                  Lottery and SGVI representatives told us that the VLTs
                                  installed in the Virgin Islands were originally salvaged from
                                  an Indian casino in the United States and then reconfigured
                                  for use in the Virgin Islands. An SGVI report indicates that
                                  Gaming Laboratories International (GLI) tested VLTs prior
                                  to their shipment to St. Thomas, but failed to identify which
                                  machines were tested. In July 2005, the Executive Director
                                  of the Lottery told us that he was waiting on approval of a
                                  contract with GLI to test the VLTs already operating in the
                                  Virgin Islands. At the April 24, 2006 exit conference,
                                  Lottery officials presented documentation indicating the
                                  first phase of testing had begun in January 2006.

          Security                VLTs operate on a computer-based system subject to the
                                  wide range of risks associated with computer technology.
                                  The Lottery has failed to appropriately assess these risks and
                                  lacks a comprehensive security program to protect the
                                  system’s sensitive proprietary and financial data. [Ex. 2]


                                  [Ex. 2]




                                                    6
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                   [Ex. 2]




                                   The contract and master license agreement lacked key
 Flawed Contract and               provisions to protect the financial interest of the
 Master Lease                      Government. This condition, coupled with the failure of the
 Agreement                         Lottery to effectively monitor VLT operations, left the
                                   Lottery with little or no control over VLT operations.

                                   Five years before lottery operations were legal in the Virgin
           Audited
           Financial               Islands, SGVI secured a contract with the Lottery as the sole
           Statements              operator of VLTs. The subsequent contract and master
                                   license agreement did not require annual audited financial
                                   statements from SGVI. Without annual audited financial
                                   statements, the Lottery cannot determine whether its share
                                   of net gaming proceeds is based on actual revenues
                                   collected by SGVI.

              Minimum              The contract and master license agreement also failed to
              Payout               establish a minimum payout rate for VLTs, which is
              Rates                contrary to standard gaming protocol. For example, the
                                   Nevada Gaming Commission and State Gaming Control
                                   Board is governed by a minimum payout rate to ensure
                                   “public confidence and trust that gaming is conducted
                                   honestly and competitively, that the rights of the creditors of
                                   licensees are protected and that gaming is free from criminal
                                   and corruptive elements.” While established payout rates
                                   can vary, 3 establishing minimum rates is a vital control over
                                   gaming. VLT revenue data from SGVI suggest an average
                                   payout rate of about 70 percent, but there is no guarantee
                                   that such a rate will continue absent a legal or contractual
                                   minimum payout requirement.

                                   The Lottery also did not monitor compliance with the
Monitoring                         contract requirement that at least 65 percent of goods and
Deficiencies                       services (with the exception of gaming hardware, software,

 3
  Nevada’s established minimum payout rate for gaming machines, for example, is 79 percent, while New
 Jersey’s is 83 percent.
                                                     7
 This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
 Information Act.
        SGVI                      and machines) be purchased from Virgin Islands companies.
        Investment in             This requirement was established to assist in fostering the
        Local Economy             economic development of the Virgin Islands. We obtained
                                  expenditure information directly from SGVI to determine
                                  that SGVI had met this requirement. This does not absolve
                                  the Lottery from its responsibility to monitor compliance
                                  with this requirement.

          Licensing               The master license agreement requires that SGVI pay an
          Fees                    annual license fee to operate VLTs in the Virgin Islands.
                                  The Lottery, however, could not provide documentation
                                  showing that SGVI paid $6,000 in license fees for 2004
                                  ($2,800) and 2006 ($3,200).

                                  The Lottery failed to pay $807,983 in VLT revenues to two
Lottery Payments to               special Government funds: 25 percent to the Virgin Islands
Special Government                Educational Initiative Fund and 15 percent to the
Funds                             Pharmaceutical Assistance to the Aged Program, as required
                                  by the VIC. 4 As of December 2005, the Lottery had paid
                                  almost $1.6 million into the Educational Initiative Fund,
                                  with $443,898 still owed, and $829,652 into the Assistance
                                  to the Aged Program, with $364,085 still owed. The VIC
                                  requires that payments to both funds be made in four
                                  quarterly installments. At the April 24, 2006 exit
                                  conference, Lottery officials stated that the Lottery was now
                                  current with transfers to the special funds.

                                  We identified several areas of deficiency in records
Records Management                management, including the Lottery’s failure to (1) maintain
Deficiencies                      complete and up-to-date files for retailer applicants,
                                  (2) ensure applicants submitted required documents, and
                                  (3) assign qualified staff to manage retailer files.

          Management              Rules and regulations established by SGVI and approved by
          of Retailer             the Lottery require retailer applicants to complete a one-
          Accounts                page application form, submit a copy of their police record
                                  (even if it is a “no infraction on record” report) and a
                                  passport-size photo, and provide other pertinent
                                  documentation. Both SGVI and the Lottery are responsible
                                  for approving applications; however, the Lottery plays no
                                  role in determining the locations and quantities of VLTs to
                                  be installed at each retail site.

                                  Of the 42 active retailer files, the Lottery could provide only
                                  35 files because files were not available for the remaining 7.
4
    VIC Section 246(a)(iv)
                                                    8
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                  We found application files to be incomplete, disorganized,
                                  and missing at least one piece of required information. For
                                  example:

                                         ¾ 12 applicants did not submit required police records
                                          or passport photos.
                                         ¾ 32 applicants did not provide floor plans of their
                                          business establishments.
                                         ¾ 34 applicants did not submit copies of current
                                          business licenses.
                                         ¾ 5 applicants did not submit completely filled-out
                                          application forms.
                                         ¾ 22 applications did not show the date of approval by
                                          the Lottery.

                                  Our review of the Lottery’s updated retailer files revealed
                                  that the Lottery did not have files for three retailers included
                                  in SGVI’s most current list of retailers. SGVI had files for
                                  42 active retailer locations, while the Lottery had files for
                                  59 retailers, without differentiation among files for active
                                  retailers, inactive retailers, and applications in process.

                                  The Lottery did not monitor the movement of VLT
                                  machines at or among retail locations. The number of
                                  current approved retailers or installed machines had to be
                                  obtained directly from SGVI because no Lottery officials or
                                  employees interviewed knew this information.

                                  Although VLT operations began in August 2003, the
                                  Lottery did not make a concerted effort to compile and
                                  organize retailer application files until December 2005.
                                  Even then, the Lottery did not assign a specific employee as
                                  custodian of the files. The Lottery’s Director of
                                  Enforcement maintained original documents for 9 retailers
                                  in his office filing cabinet, and the Lottery’s Director of
                                  Technology maintained 35 retailer applications (some
                                  duplicates) in a manila folder in his office.




                                                    9
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
RECOMMENDATIONS
                                  We recommend that the Governor of the Virgin Islands
TO THE GOVERNOR                   direct the Bureau of Internal Revenue to:
OF THE VIRGIN
ISLANDS                           1. Determine whether VLT gaming proceeds are taxable
                                     under the gross receipts tax laws.

                                  2. Ensure that SGVI has remitted VLT prize winning
                                     withholdings in accordance with tax law.

                                  3. Ensure that SGVI files corporate income tax returns in
                                     the Virgin Islands and pays any corporate taxes due.

                                  We recommend that the Governor of the Virgin Islands
                                  direct the Lottery to:

                                  4. Update its records on retailer applicants.

                                  5. Establish and implement procedures to ensure the
                                     accuracy of SGVI payments.

                                  6. Establish and implement procedures for cash collection.

                                  7. Ensure that on-going and independent testing is
                                     performed on all VLTs in the Virgin Islands.

                                  8. Establish and implement security protocol.

                                  9. Obtain audited annual financial statements for VLT
                                     operations in the Virgin Islands prepared in accordance
                                     with Generally Accepted Accounting Principles.

                                  10. Revise the existing VLT contract and master license
                                      agreement to include a minimum payout rate and
                                      physical and computer controls over VLT operations.

                                  11. Confirm that SGVI has paid required annual license fees
                                      for 2004 and 2006 and ensure annual fees are collected
                                      timely in the future.

                                  In his February 2, 2007 response to our draft report
GOVERNOR’S                        (Appendix 4), the Governor of the Virgin Islands, through
RESPONSE AND                      the management of the Lottery, concurred with 6 of the
OIG REPLY                         11 recommendations and stated what action will be taken to
                                  implement the recommendations. All six recommendations
                                                   10
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                  were related to the failure of the Lottery to ensure that the
                                  Government received all the VLT related revenues and
                                  taxes to which it was entitled. The Governor did not concur
                                  with the remaining five recommendations, indicating that
                                  corrective action had already been taken. Based on the
                                  response, we consider Recommendation Nos. 1 and 4 to be
                                  resolved and implemented, Recommendation Nos. 2, 3, 6, 9,
                                  and 10 to be resolved, but not implemented, and
                                  Recommendation Nos. 5, 7, 8, and 11 to be unresolved.
                                  Appendix 5 describes the status of the audit
                                  recommendations and the actions required for resolution.

    Recommendation                The response stated the Lottery has been verifying the
    No. 5                         accuracy of all payment receipts received from SGVI and
                                  immediately reconciling any outstanding differences. At the
                                  time of the audit, however, gaming proceeds were not being
                                  reconciled to payment remittances to detect errors.

    Recommendation                The response stated that prior to this audit, the Virgin
    No. 7                         Islands Lottery Commission entered into a contract with
                                  GLI to test and perform an audit on all machines. However,
                                  in July 2005, the Executive Director told us that he was
                                  waiting on approval of a contract with GLI to test the VLTs
                                  already operating in the Virgin Islands, but that the contract
                                  was never provided. At the April 24, 2006 exit conference,
                                  Lottery officials presented documentation indicating the
                                  first phase of testing had begun in January 2006. At the
                                  time of our audit, however, on-going and independent
                                  testing was not being performed on all VLTs in the Virgin
                                  Islands.

    Recommendation                The response stated that the Lottery has established and
    No. 8                         implemented a proper security protocol and provided a copy
                                  of Standard Operating Procedures that was not available
                                  during the audit. While Standard Operating Procedures are
                                  in place, they do not address any of the security issues
                                  detailed in the report, such as a comprehensive security
                                  program to protect the system’s sensitive proprietary and
                                  financial data.

    Recommendation                The response stated the Lottery has verified that all annual
    No. 11                        license fees for 2004 and 2006 were collected. At the time
                                  of the audit, however, the Lottery could not provide
                                  evidence that these fees had been collected and has yet to
                                  provide documentation showing the collection of these fees.


                                                   11
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
APPENDIX 1
MONETARY IMPACT

                           Finding Area                         Unrealized Revenue*
           Revenue Collection
           Potential Gross Receipts Taxes:
            Total Revenues                                                3,500,000
            Retailers                                                       240,000
           Unpaid License Fees                                                6,000

                      Total                                             $3,746,000
        * All amounts represent local funds.




                                                   12
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
APPENDIX 2
AUDIT SCOPE AND METHODOLOGY
                                  The scope of the audit included VLT operations and Lottery
SCOPE AND                         oversight from August 2003 through December 2005. To
METHODOLOGY                       accomplish our objective, we interviewed Lottery and SGVI
                                  officials. We also reviewed contracts between the Lottery
                                  and SGVI; Lottery operating procedures; SGVI business
                                  plans and retailer policies; weekly statements of VLT
                                  revenues collected and distributed by SGVI; and other
                                  related documents at the Lottery, SGVI, retailer locations,
                                  and Virgin Islands Department of Finance and Bureau of
                                  Internal Revenue. In addition, we researched standard
                                  protocols related to effective management of computer-
                                  based gaming within the United States and incorporated
                                  these protocols, as appropriate, into our findings and
                                  recommendations.

                                  Our audit was conducted in accordance with the
                                  Government Auditing Standards, issued by the Comptroller
                                  General of the United States. Accordingly, we included
                                  such tests of records and other auditing procedures that were
                                  considered necessary under the circumstances. As part of
                                  our audit, we evaluated the internal controls related to VLT
                                  revenue collection and distribution, contract compliance,
                                  selection and approval of retailer locations, file
                                  management, and VLT-related computer security. We used
                                  the Federal Information Systems Controls Audit Manual
                                  issued by the U.S. Government Accountability Office as our
                                  guide for the computer security phase of the audit. Internal
                                  control weaknesses identified in these areas are discussed in
                                  the Results of Audit section of this report. The
                                  recommendations, if implemented, should improve internal
                                  controls in these areas.

                                  A May 2001 OIG audit report on Lottery operations (No 01-
PRIOR AUDIT                       I-290) found deficiencies related to the use of Lottery funds,
COVERAGE                          collection of Lottery ticket revenues, controls over unsold
                                  lottery tickets, distribution of net Lottery revenues, financial
                                  statement audits, records management, and supervision of
                                  computer operations. Three of the report’s
                                  16 recommendations were resolved by the time the final
                                  report was issued. In September 2003, the Lottery provided

                                                   13
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                  documentation indicating that the remaining
                                  13 recommendations had been implemented.

                                  A November 2005 audit report Virgin Islands Lottery
FISCAL YEAR 2004                  Financial Statements, September 30, 2004, by an
FINANCIAL                         independent Certified Public Accountant on Lottery
STATEMENT AUDIT                   financial statements for the fiscal year ended September 30,
REPORT                            2004, found deficiencies similar to those discussed in our
                                  May 2001 report and in this report. The November 2005
                                  report included a qualified opinion on the financial
                                  statements and presented 15 internal control findings on the
                                  Lottery’s financial operations. The findings, which included
                                  reportable conditions and material weaknesses, related to:

                                      1. A lack of effective controls over financial reporting.
                                      2. Failure to establish an escrow account for past due
                                          receivables.
                                      3. Concerns about the integrity of high payouts at
                                          certain Lottery sites.
                                      4. Inadequate verification of accounts receivable.
                                      5. Inadequate controls over delinquent Lottery sales
                                          agents.
                                      6. Inadequate training of financial staff and lack of
                                          segregation of duties.
                                      7. Inadequate maintenance of supporting
                                          documentation.
                                      8. Improper use of daily cash collections for other
                                          purposes.
                                      9. Inadequate controls over purchasing and
                                          disbursement transactions.
                                      10. Improper maintenance of fixed assets.
                                      11. Inadequate controls over automated gaming systems
                                          operated by its third party contractor.
                                      12. Untimely transfer of proceeds to the Government of
                                          the Virgin Islands.
                                      13. Inadequate and ineffective controls over ticket sales.
                                      14. Failure to obtain tax information on prize winners.
                                      15. Improperly determined prize payments.

                                  Our current audit of VLT operations disclosed deficiencies
                                  similar to findings 1, 7, 11, 12, and 14 of the Certified
                                  Public Accountant’s report. We addressed these
                                  deficiencies in our findings and recommendations.




                                                   14
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
APPENDIX 3
LIST OF VIDEO LOTTERY RETAILERS

        Name of Retailer                    Location of Retailer                 No. of VLTs
 1 Wyndham Sugar Bay                    Estate South Bay                                99
 2 Offshore Bar                         Havensight                                      15
 3 Shipwreck Tavern                     Havensight                                      10
 4 Havensight Café                      Havensight                                      4
 5 Delly Deck                           Havensight                                      4
 6 Magen’s Point Hotel                  Magen’s Bay Road                                10
 7 St. Thomas Time                      Havensight                                      10
 8 Bonnie’s                             Elysian Beach Resort                            10
 9 The Greenhouse                       Veteran’s Drive                                 6
10 Pony Bar                             Frenchtown                                      10
11 Giggling Gecko                       Dronnigens Gade                                 8
12 Caribbean Saloon                     Red Hook                                        11
13 Glenn’s Gifts & Bags                 Kronprindsens Gade                              6
14 Paradise Jackpot                     Nisky Center                                    10
15 Poli’s                               St. John                                        6
16 Cap’s Place                          St. John                                        8
17 Larry’s Landing                      St. John                                        8
18 The 19th Hole                        Dronnigens Gade                                 7
19 Little Bar                           Contant                                         10
20 Sharky’s                             Havensight Port of Sale                         4
21 Tropic Sun Bar                       Curacao Gade                                    6
22 Mountain Top                         Estate St. Peter                                4
23 Holiday Inn Windward Passage         Veteran’s Drive                                 87
24 Pirates Cove                         Frydenhoj                                       6
25 Captain’s Cabin                      St. John                                        9
26 Banana Tree Grill                    Bluebeard’s Hotel                               6
27 The North Drop                       Hull Bay                                        5
28 Hull Bay Hideaway                    Hull Bay                                        4
29 West Indies Bistro                   Havensight                                      5
30 Paradise BBQ Too                     Vitraco Mall                                    10
31 Playtime, Inc.                       Frigang Gade                                    9
32 Lime Tree Hotel                      Lime Tree Bay                                   2
33 Two of Us Entertainment              Sub-Base                                        10
34 The Office                           Nisky                                           8
35 Johnny Mangoes                       Fort Mylner Mall                                8
36 Contant Gaming                       Contant                                         10

                                                    15
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
         Name of Retailer                   Location of Retailer                 No. of VLTs
37 Latte Bucks                          Vitraco Mall                                    8
38 The Old Mill                         Upper Contant                                   10
39 Cyber Zone                           Havensight                                      6
40 Charlotte Tamales                    Havensight                                      6
41 Sibs on the Mountain                 Estate St. Elizabeth                            6
42 Gentlemen’s                          Sub-Base                                        8
Totals                                                                                 489




                                                   16
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
APPENDIX 4
GOVERNOR’S RESPONSE




                                                   17
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   18
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   19
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   20
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   21
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   22
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   23
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   24
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   25
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   26
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   27
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   28
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   29
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
                                                   30
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
APPENDIX 5
STATUS OF AUDIT RECOMMENDATIONS
       Finding/
   Recommendation                 Status                           Action Required
             1               Resolved and         None.
                             Implemented.
             2               Resolved, Not        Provide documentation of review of VLT prize
                             Implemented.         winning withholdings.
             3               Resolved, Not        Provide documentation of corporate income tax
                             Implemented.         returns filed by Southland Gaming in the Virgin
                                                  Islands.
             4               Resolved and         None.
                             Implemented.
             5               Unresolved.          Provide the policies and procedures established
                                                  that ensure the accuracy of SGVI payments.
             6               Resolved, Not        Provide documentation of established procedures
                             Implemented.         for cash collections.
             7               Unresolved.          Provide documentation to show that independent
                                                  testing and audits have been performed on all VLT
                                                  machines in the Virgin Islands and the results of
                                                  such testing and audits.
             8               Unresolved.          Provide documentation to show that the security
                                                  issues detailed in the report, such as a
                                                  comprehensive security program to protect the
                                                  system’s sensitive proprietary and financial data,
                                                  have been included in the Standard Operating
                                                  Procedures.
             9               Resolved, Not        Provide documentation to show enforcement of
                             Implemented.         contract option requiring SGVI to prepare and
                                                  publish audited annual statements for VLT
                                                  operations in the Virgin Islands.
            10               Resolved, Not        Provide copy of final Rules and Regulations
                             Implemented.         requiring minimum payout rates and physical and
                                                  computer controls over VLT operations.
            11               Unresolved.          Provide documentation of payments for $6,000 in
                                                  unpaid license fees for 2004 and 2006.




                                                   31
This report contained information that was redacted pursuant to 5 U.S.C. § 552(b)(2) of the Freedom of
Information Act.
